          QUALITY CONTROL REVIEW OF
       AUDITED FINANCIAL STATEMENTS FOR
           FISCAL YEARS 2010 AND 2009

                 National Transportation Safety Board

                     Report Number: QC-2011-009
                    Date Issued: November 5, 2010




Report Number QC-2011-009
U.S. Department of                                                 Office of Inspector General
Transportation                                                     Washington, DC 20590

Office of the Secretary
of Transportation




November 5, 2010

The Honorable Deborah A. P. Hersman
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, D.C. 20594

Dear Chairman Hersman:

The audit of the National Transportation Safety Board’s (NTSB) Financial
Statements as of and for the fiscal years (FYs) ended September 30, 2010, and
September 30, 2009, was completed by Leon Snead & Company, P.C., of
Rockville, Maryland (see Enclosure). We performed a quality control review of
the audit work to ensure that it complied with applicable standards. These
standards include the Chief Financial Officers Act; Accountability of Tax Dollars
Act of 2002; generally accepted government auditing standards prescribed by the
Comptroller General of the United States; and Office of Management and Budget
Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” as
amended.

Leon Snead & Company concluded that the financial statements present fairly, in
all material respects, the financial position, net cost, changes in net position, and
budgetary resources of the NTSB as of and for the years ended
September 30, 2010, and September 30, 2009, in conformity with accounting
principles generally accepted in the United States. Leon Snead & Company
reported one significant deficiency in internal control and no instances of
noncompliance with significant laws and regulations.




Report Number QC-2011-009
                                                                                  2

Significant Deficiency

 1. NTSB Cost Accounting System - NTSB has not yet implemented a
    managerial cost accounting system.

Leon Snead & Company first reported NTSB’s lack of a cost accounting system as
a significant deficiency in FY 2007. During FY 2010, NTSB obtained funding to
implement a managerial cost accounting system, trained selected staff, and
established a pilot project. Because NTSB's goal is to go fully operational with its
managerial cost accounting system during the second quarter of FY 2011, Leon
Snead & Company did not make any further recommendations in its FY 2010
report.

Our quality control review disclosed no instances in which Leon Snead &
Company did not comply with applicable auditing standards. Therefore, we are
not making any additional recommendations, and a response to this report is not
required.

We appreciate the cooperation and assistance of representatives of NTSB and
Leon Snead & Company, P.C. If we can answer any questions or be of any further
assistance, please call me at (410) 962-1729 or George Banks, Project Manager, at
(410) 962-0186.


Sincerely,




Earl C. Hedges
Acting Assistant Inspector General for Financial and
Information Technology Audits

Enclosure




Report Number QC-2011-009
